APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Summary Order in the United States
Court of Appeals for the Second
Circuit
(May 28, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Opinion and Order in the United
States District Court, Southern
District of New York
(May 31, 2018) . . . . . . . . . . . . . . . App. 8

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
18-1936
[Filed May 28, 2019]
_______________________________________
HAROLD A. FLORES,
)
Plaintiff-Appellant,
)
)
v.
)
)
ENTERGY NUCLEAR OPERATIONS, INC.,
)
)
Defendant-Appellee.*
_______________________________________)
SUMMARY ORDER
Rulings by summary order do not have precedential
effect. Citation to a summary order filed on or after
January 1, 2007, is permitted and is governed by
Federal Rule of Appellate Procedure 32.1 and this
Court’s Local Rule 32.1.1. When citing a summary
order in a document filed with this Court, a party must
cite either the Federal Appendix or an electronic
database (with the notation “summary order”). A party
citing a summary order must serve a copy of it on any
party not represented by counsel.

*

The Clerk of Court is directed to amend the caption as set out
above.

App. 2
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 28th day of May, two
thousand nineteen.
PRESENT: JOHN M. WALKER, JR.,
JOSÉ A. CABRANES,
PETER W. HALL,
Circuit Judges.
FOR PLAINTIFF-APPELLANT:

Michael Confusione, Hegge & Confusione, LLC, Mullica
Hill, NJ.
FOR DEFENDANT-APPELLEE:

Jonathan M. Kozak, Jackson Lewis P.C., White Plains,
NY.
Appeal from a judgment of the United States
District Court for the Southern District of New York
(Cathy Seibel, Judge).
UPON DUE CONSIDERATION WHEREOF, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the

judgment of the District Court be and hereby is
AFFIRMED.
Plaintiff-Appellant Harold A. Flores (“Flores”)
appeals the District Court’s grant of summary
judgment to Defendant-Appellee Entergy Nuclear
Operations, Inc. (“Entergy”). Flores sued Entergy
under Title VII of the Civil Rights Act of 1964, 42
U.S.C. § 2000e, and the Americans with Disabilities
Act, 42 U.S.C. § 12101, alleging retaliation and

App. 3
discrimination on the basis of race and perceived
disability.1
We assume the parties’ familiarity with the
underlying facts, the procedural history of the case, and
the issues on appeal. “We review a district court’s grant
of summary judgment de novo, construing the evidence
in the light most favorable to the non-moving party and
drawing all reasonable inferences in its favor.” Allianz
Ins. Co. v. Lerner, 416 F.3d 109, 113 (2d Cir. 2005).
In this appeal, Flores advances several arguments
in support of his contention that Entergy retaliated
against him for supporting a colleague’s discrimination
claim (in violation of Title VII) and discriminated
against him based on his perceived alcoholism (in
violation of the ADA). We reject each argument in turn.
First, Flores argues that the the District Court
erred in disregarding alleged retaliatory events that
occurred before June 17, 2015, as untimely because
Entergy “waived” the statute-of-limitations defense by
failing to raise the issue in its Answer. Br. Appellant
12. This is incorrect. Entergy specifically invoked the
limitations period in its Answer. App’x 31 (“Plaintiff’s
claims are barred, in whole or in part, by the applicable
statutes of limitation or administrative filing periods.”).

1

Although Flores also included state claims in his complaint, the
District Court declined to exercise supplemental jurisdiction over
these state claims because the federal claims were eliminated prior
to trial. SA 31-32. See also Kolari v. New York-Presbyterian Hosp.,
455 F.3d 118, 122 (2d Cir. 2006).

App. 4
Second, Flores argues that the statutory limitations
do not apply because the pre-June 17, 2015 acts are
“part of the overall retaliation and discrimination
charge.” Br. Appellant 13. We disagree. As we have
previously explained, the “continuing violation
exception” applies only where a plaintiff alleges an
“ongoing policy” of related discrimination, rather than
cases of “discrete acts of discrimination or retaliation
that occur outside the statutory time period, even if
other acts of discrimination occurred within the
statutory time period.” Patterson v. Cty. of Oneida, 375
F.3d 206, 220 (2d Cir. 2004) (internal quotation marks
and citations omitted). Here, Flores has provided no
evidence that the allegedly retaliatory acts were part of
such an ongoing policy.
Third, Flores argues that the District Court erred in
finding that he failed to establish a “causal connection”
between his protected activity and subsequent adverse
employment actions. Br. Appellant 15. As evidence of
such causation, Flores points to the temporal proximity
between his submission of an affidavit in support of a
colleague’s discrimination complaint and his 2013
termination. Id. at 16. Similarly, Flores asserts that,
for the rest of his allegations, a “jury c[ould] find” that
various alleged adverse employment actions were
retaliatory. Id at 17.
This argument fails for several reasons: first, as we
have already explained, claims based on adverse
employment actions that occurred before June 17, 2015
(including Flores’s temporary 2013 termination) are
barred by the relevant limitations period. Moreover,
any inference of retaliation based on the proximity of

App. 5
Flores’s submission and his termination is undermined
by undisputed evidence that the termination decision
preceded Flores’s protected activity, App’x 394-97, and
was based on a substantial disciplinary record, App’x
80-90, 347-391. Moreover, this 2013 termination is the
only adverse employment action for which Flores
advances any argument (rather than a conclusory
statement) of a “causal connection” to a protected
activity. Accordingly, Flores has failed to establish a
prima facie case of retaliation under Title VII. Cosgrove
v. Sears, Roebuck & Co., 9 F.3d 1033, 1039 (2d Cir.
1993).
Next, Flores argues that the District Court erred in
concluding that “there is no evidence that [he] was
disabled or that [Entergy] regarded [him] as such.” Br.
Appellant 21. Moreover, Flores argues a reasonable
jury could find that drug testing and counseling
requirements, unspecified “harassment” by coworkers,
and various seemingly unrelated employment actions
(including, inter alia, the rescheduling of a physical
examination, and a change in his working hours)
amounted to adverse employment actions under the
ADA. Id. at 24.
We reject these arguments as well. Insofar as Flores
is arguably correct that Entergy regarded him as
“disabled” on account of alcoholism or substance abuse,
drug testing and counseling are not acts of
discrimination, but lawful precautions. See Buckley v.
Consol. Edison Co. of N.Y., 155 F.3d 150, 156 (2d Cir.
1998). With respect to Flores’s allegation of coworkers’
teasing, we agree with the District Court that this
“lacks the requisite specificity to be considered the

App. 6
basis for finding an adverse employment decision,” and
that there is “also no basis to attribute this conduct to
[Entergy].” See Flores v. Entergy Nuclear Operations,
Inc., 313 F. Supp. 3d 511, 526 (S.D.N.Y. 2018).
Moreover, we have previously held that the ADA
only prohibits an employer from taking an adverse
employment action where that action is “materially
adverse.” Davis v. N.Y.C. Dep’t of Educ., 804 F.3d 231,
235 (2d Cir. 2015) And as we have explained
previously, “[a]ctions that are trivial harms—i.e., those
petty slights or minor annoyances that often take place
at work and that all employees experience—are not
materially adverse.” Tepperwien v. Entergy Nuclear
Operations, Inc., 663 F.3d 556, 568 (2d Cir. 2011)
(internal quotation marks omitted). Flores has not
offered evidence (or even pleaded with specificity) that
any alleged teasing was greater than “petty slights.”
Accordingly, he has failed to establish “a genuine
factual” dispute regarding whether these events
support an ADA claim. Scotto v. Almenas, 143 F.3d
105, 114 (2d Cir. 1998).
As for the remainder of Flores’s allegations, Flores
offers no evidence whatsoever attributing these actions
to Entergy’s perception of him as “disabled.”2 Flores

2

In fact, Flores himself highlights his failure to connect allegedly
adverse employment actions to his disability when he breezily
declares that “many of the adverse actions that plaintiff detailed
with regard to the retaliation claim are adverse actions with
regard to the ADA claim as well.” Br. Appellant 23. This
nonchalance regarding whether Entergy punished him for
submitting an affidavit or for his perceived alcoholism reflects, we
think, confidence in neither theory.

App. 7
has therefore failed to establish that “he suffered
adverse employment action because of his disability,” a
key element of a prima facie case under the ADA. Sista
v. CDC Ixis N. Am., Inc., 445 F.3d 161, 169 (2d Cir.
2006) (emphasis added).
CONCLUSION

We have reviewed all of the arguments raised by
Flores on appeal and find them to be without merit. For
the foregoing reasons, we AFFIRM the May 31, 2018
judgment of the District Court.
FOR THE COURT:
Catherine O’Hagan Wolfe,
Clerk of Court
____________/s/___________

App. 8

APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
16-CV-7207 (CS)
OPINION & ORDER
[Filed May 31, 2018]
_________________________________
HAROLD A. FLORES,
)
)
Plaintiff,
)
)
- against )
)
ENTERGY NUCLEAR
)
OPERATIONS, INC.,
)
)
Defendant. )
_________________________________)
Appearances:
Amy L. Bellantoni
The Bellantoni Law Firm,
PLLC
Scarsdale, New York
Counsel for Plaintiff
Seibel, J.

Jonathan M. Kozak
Benjamin J. Yeamans
Jackson Lewis P.C.
White Plains, New York
Counsel for Defendant

App. 9
Before the Court are the motion for summary
judgment, (Doc. 37), and motion for sanctions,
(Doc. 31), of Defendant Entergy Nuclear Operations,
Inc. (“Entergy”). For the reasons stated below, both
motions are GRANTED.
I.

BACKGROUND

The facts set forth below are taken from the parties’
Local Rule 56.1 Statements and supporting materials,
and are undisputed unless otherwise noted.
Defendant operates the Indian Point Energy Center
(“IPEC”), a power generating nuclear facility located in
Buchanan, New York, under a license issued by the
U.S. Nuclear Regulatory Commission (“NRC”). (Doc. 46
(“P’s 56.1 Stmt. & Resp.”) ¶¶ 1-2.) Former Defendant
Daniel Gagnon has been employed by Defendant since
2008 as the Security Manager at IPEC. (Doc. 12 ¶ 8.)
Former Defendant Wayne Griffin has been employed
by Defendant since 2011 as the Supervisor of Access
Authorization/Fitness for Duty at IPEC. (Id. ¶ 10.)
Plaintiff Harold Flores is employed by Defendant as
an armed Nuclear Security Officer (“NSO”) at IPEC.
(P’s 56.1 Stmt. & Resp. ¶ 1.) He was initially hired in
April 2005, and with the exception of a break in
employment between May 2013 and October 2014, has
held the same position since then. (Id. ¶ 7.) As an NSO,
his responsibilities include but are not limited to:
patrolling; controlling entry processing of individuals
into protected areas; conducting personnel and vehicle
searches; securing, protecting and assisting at scenes
of accidents, fires and similar events; and conducting

App. 10
operational tests of intrusion detection and contraband
detection systems. (Id. ¶ 8.)
A. NRC Regulations
As a nuclear plant operator, Defendant is required
to adhere to numerous regulations promulgated by the
NRC. (See id. ¶¶ 3-5.) These regulations mandate,
among other things, that Defendant maintain a fitnessfor-duty (“FFD”) program and an unescorted access
authorization (“UAA”) program. See 10 C.F.R. §§ 26.21,
73.56 (2018).
The FFD program is designed to “[p]rovide
reasonable assurance” that employees are “trustworthy
and reliable” and “are not under the influence of any
substance, legal or illegal, or mentally or physically
impaired from any cause, which in any way adversely
affects their ability to safely and competently perform
their duties.” Id. § 26.23(a), (b). Those subject to the
FFD program include all persons who are granted UAA
to protected areas of a nuclear power reactor and
perform security duties as an armed security officer. Id.
§ 26.4(a)(5).
The NRC further mandates that a licensee have an
access authorization program that “provide[s] high
assurance” that any persons granted UAA to sensitive
areas of the plant “are trustworthy and reliable, such
that they do not constitute an unreasonable risk to
public health and safety or the common defense and
security, including the potential to commit radiological
sabotage.” Id. § 73.56(c). If the licensee discovers
potentially disqualifying FFD information relating to
one of its employees, “to maintain the individual’s

App. 11
authorization, . . . the licensee’s . . . designated
reviewing official [must] complete[] a review of the
circumstances associated with the [potentially
disqualifying FFD] information.” Id. § 26.69(d)(1). The
reviewing official may require an appropriate
professional to undertake a “determination of fitness”
to see if “the individual is fit to safely and competently
perform his or her duties.” Id. § 26.69(d)(2). One type of
potentially disqualifying FFD information is
“information demonstrating that an individual has
[u]sed, sold, or possessed illegal drugs.” Id. § 26.5. In
the event that an individual’s potentially disqualifying
information is drug-related, “[i]f the reviewing official
determines that maintaining the individual’s
authorization is warranted, [the licensee, shall]
implement any recommendations for treatment and
followup drug and alcohol testing from the
determination of fitness, which may include the
collection of urine specimens under direct observation,
and ensure that the individual complies with and
successfully completes the treatment plans.” Id.
§ 26.69(d)(3).
B. Plaintiff’s Employment
Termination

Prior

to

Between November 2007 and May 2013, Plaintiff
was counseled, warned, reprimanded or suspended
twenty-three times as a result of repeated performance
issues, mostly tardiness and absenteeism. (Id. ¶¶ 1033.)
On April 18, 2013, Plaintiff was arrested and
charged with criminal possession of a controlled
substance in the seventh degree. (Id. ¶ 34.) As a result

App. 12
of the arrest, Plaintiff’s New York State pistol permit
was suspended, rendering him unqualified to perform
his job as an armed NSO. (Id. ¶ 36.)1 In light of
Plaintiff’s inability to work as an armed NSO following
his arrest, and as a result of Plaintiff’s prior extensive
disciplinary record, Gagnon and the Security
Supervisor decided to terminate Plaintiff’s employment
on May 9, 2013. (Id. ¶ 37; Doc. 42 (“Kozak MSJ Aff.”)
Ex. HH at 2.) The decision was confirmed in a
memorandum from Gagnon to Flores dated May 16,
2013. (P’s 56.1 Stmt. & Resp. ¶ 38; Kozak MSJ Aff.
Ex. II.) Plaintiff does not dispute that his employment
was terminated on May 16, 2013, although he contends
that he was not aware of that fact at the time. (P’s 56.1
Stmt. & Resp. ¶ 39.)
On or about May 13, 2013, Plaintiff provided an
affidavit in support of co-worker Kendric Lever’s thenpending discrimination lawsuit against Defendant. (Id.
¶ 41.)2 According to Plaintiff, Lever gave Plaintiff a

1

Plaintiff admits that the suspension of his state pistol permit
rendered him unqualified to perform his job as an armed NSO. (Id.
¶ 36.) Elsewhere he seems to dispute that possession of a valid
pistol permit is an essential precondition to being an armed NSO,
(id. ¶ 9; Doc. 45 (“P’s MSJ Opp.”) at 7-8), and also argues that
Defendant requiring it was retaliatory, (see P’s MSJ Opp. at 7-8).
Putting aside the inconsistency of Plaintiff’s positions, the dispute
is immaterial. Even if possession of a valid pistol permit was not
an essential precondition to being an armed NSO, a retaliation
claim based on this requirement would be time-barred, for the
reasons discussed below.
2

May 13, 2013 is the date the affidavit was filed and stamped in
court; Plaintiff does not recall when he signed the affidavit. (See
Kozak MSJ Aff. Ex. D (“P’s Depo.”) at 129:10-21.)

App. 13
prepared affidavit, which Plaintiff then signed. (Id.
¶ 42.) Plaintiff never told anyone at Entergy that he
provided an affidavit in support of Lever’s claim, nor
does Plaintiff believe that Gagnon or Griffin had any
reason to know that he provided the affidavit at the
time of his termination. (Id. ¶ 43.)
C. The
Settlement
of
Termination Grievance

Plaintiff’s

As a NSO at IPEC, Plaintiff was and is a member of
Local 456 of the International Brotherhood of
Teamsters (the “Union”). (Id. ¶ 44.) On May 31, 2013,
through his Union representative, Plaintiff grieved the
termination. (Id. ¶ 45; Kozak MSJ Aff. Ex. JJ.)
Plaintiff, through his attorney, served Defendant with
a notice of intention to arbitrate on August 2, 2013,
(Kozak MSJ Aff. Ex. KK at 2), and arbitration was
scheduled for January 31, 2014, (P’s 56.1 Stmt. & Resp.
¶ 47). In the meantime, on October 8, 2013, the charge
against Plaintiff for criminal possession of a controlled
substance was dismissed. (Id. ¶ 48.)
On January 31, 2014, Plaintiff and Defendant
reached a settlement agreement (the “Settlement
Agreement”), which fully and finally resolved the
dispute and provided Plaintiff with a path to return to
work as a NSO with his prior seniority, as long as
Plaintiff accomplished certain enumerated
preconditions. (Id. ¶¶ 49-50.) Pursuant to the
Settlement Agreement, Plaintiff was required to obtain
a valid Westchester County pistol permit by July 1,
2014 and meet all access requirements established by
Defendant’s access authorization department in
accordance with company policy. (Id. ¶ 51.) The

App. 14
Settlement Agreement also provided that if Plaintiff
satisfied these conditions, Defendant would reinstate
Plaintiff to the NSO position, and the period from his
termination until his reinstatement would be
considered an unpaid leave of absence except for May
17, 2013, which would be considered a one-day unpaid
disciplinary suspension. (Id.) But if Plaintiff failed to
comply with its terms, he would not be reinstated. (Id.)
Plaintiff spoke with his attorney before entering into
the Settlement Agreement, understood and agreed to
its terms, and voluntarily signed it. (Id. ¶ 52; P’s Depo.
at 144:21-23.)
D. Plaintiff’s Reinstatement
Plaintiff secured his pistol permit on July 3, 2014,
two days after the July 1, 2014 deadline. (Kozak MSJ
Aff. Ex. OO.) As a result, Defendant initially declined
to reinstate Plaintiff. (Id.) But on September 3, 2014,
Plaintiff obtained a judicial ruling from the
Westchester County Court retroactively backdating
Plaintiff’s pistol permit to June 30, 2014. (Id.) Plaintiff
was ultimately reinstated as a NSO in or about October
2014. (P’s 56.1 Stmt. & Resp. ¶ 56.)
E. Recommendations from an Independent
Substance Abuse Expert
Because of Plaintiff’s arrest, an independent
substance abuse expert, Dr. Paul T. Seidenschnur,
evaluated Plaintiff on May 2, 2013 to determine his
FFD pursuant to Defendant’s policy and NRC
Regulations. (Id. ¶ 62.)
In his May 2, 2013 report, Dr. Seidenschnur
concluded that Plaintiff engaged in “risky behavior”

App. 15
and “used questionable judgment” with respect to the
events leading up to his arrest for criminal possession
of a controlled substance. (Id. ¶ 63; Kozak MSJ Aff. Ex.
PP at 3.) Nonetheless, Dr. Seidenschnur concluded that
Plaintiff was “indeed fit for duty as long as he [wa]s
compliant with the following recommendations:”
(1) participate in five to eight sessions of a psychoeducational program addressing alcohol and drug
consumption practices and their effect; (2) regularly
indicate compliance with the treatment; and
(3) participate in intensified random follow-up drug
testing (a minimum of twenty-nine tests over three
years). (P’s 56.1 Stmt. & Resp. ¶ 63; Kozak MSJ Aff.
Ex. PP at 3.)
On October 2, 2014, Dr. Siedenschnur modified his
recommendation, in light of the dismissal of Plaintiff’s
2013 criminal charge, reducing the number of psychoeducational program sessions to three to five and
reducing the number of drug tests to a minimum of
twelve. (Kozak MSJ Aff. Ex. QQ.) Griffin
communicated these recommendations to Plaintiff by
letter dated October 9, 2014. (P’s 56.1 Stmt. & Resp.
¶ 66.) Plaintiff understood that Griffin was required to
follow to Dr. Seidenschnur’s recommendations so
Plaintiff could maintain UAA. (Id. ¶ 67.)
F. Plaintiff’s Conduct Leading Up to the
December 2015 Suspension
In or about August 2015, Plaintiff was issued a
summons for possessing an open container of alcohol
while sitting on a friend’s porch and was ordered to
appear in court on September 24, 2015. (Id. ¶¶ 69-70.)
Plaintiff failed to report to Defendant both the fact that

App. 16
he received the open container summons and the
September 24, 2015 court date. (Id. ¶ 71.)
Plaintiff failed to report to work on September 24,
2015, and missed a scheduled annual physical
examination that was necessary for him to maintain
his NSO qualification. (Id. ¶ 72.) Plaintiff knew that he
was scheduled for the physical on that date. (Id. ¶ 73.)
Additionally, in early October 2015, Plaintiff was
scheduled to take an annual exam – known as the RAD
exam – that NSOs are required to pass. (Id. ¶ 74.)
NSOs have three opportunities to pass this exam. (Id.
¶ 75.) Each time a NSO fails the exam, he is required
to report the failure to a supervisor prior to retaking
the exam. (Id.) The consequence for failing a third time
is termination from employment because of the
inability to obtain a necessary qualification. (Id. ¶¶ 76,
79.)
On October 7 and 8, 2015, fact finding meetings
were conducted concerning Plaintiff’s failed RAD
worker exams. (Id. ¶ 77.) The fact finding meetings
revealed that Plaintiff failed his first attempt at the
exam, but instead of reporting the failure to his
supervisor as required, he took the exam a second time
immediately thereafter and failed again. (Id. ¶ 78.)
On October 12, 2015, Plaintiff failed to attend
scheduled shooting range training. (Id. ¶ 80.) Plaintiff
claimed that a supervisor told him that he was not
required to go to the range, but a fact finding
determined that Plaintiff was never told that he should
skip the shooting range training. (Id.) As a result of
these four performance and communications issues,

App. 17
Defendant suspended Plaintiff for three days on
December 7, 2015. (Id. ¶ 81; Kozak MSJ Aff. Ex. XX.)
Plaintiff challenged the suspension by filing a
grievance through his Union representative. (P’s 56.1
Stmt. & Resp. ¶ 82; Kozak MSJ Aff. Ex. ZZ.)
G. Plaintiff Enrolls in the Substance Abuse
Program
Between October 2014 and September 2016,
Plaintiff was selected for drug testing on eight
occasions. (P’s 56.1 Stmt. & Resp. ¶ 91.) Plaintiff
contends that he was directed to go for these tests in
the presence of other NSOs, and that certain unnamed
peers made comments asking him whether he was a
drug addict or whether he wanted them to take the
drug test for him. (Id. ¶¶ 84-85.) At his deposition,
Plaintiff was initially unable to recall the identity of
any supervisor who allegedly publicly notified him to
submit to a random drug test. (Id. ¶ 86.) In response to
Defendant’s counsel’s request to provide him with the
name of just one lieutenant who allegedly publicly
notified him to submit to a drug test, Plaintiff
responded “I’d say Lieutenant Bauman.” (Id. ¶ 87.)
Plaintiff was unable to recall any dates when
Lieutenant Bauman allegedly asked him in the
presence of others to submit to a drug test. (Id. ¶ 88.)
Plaintiff also was unable to identify the name of a
single co-worker whom he claims teased him for having
to submit to drug tests. (Id. ¶ 89.) Plaintiff
acknowledged that his co-workers regularly joke
around and that he has never complained to anyone at
Entergy about being offended by coworkers’ comments.
(Id. ¶ 90.)

App. 18
H. Procedural Posture
On April 12, 2016, Plaintiff filed a discrimination
charge with the New York State Division of Human
Rights (“NYSDHR”), which was deemed dual-filed with
the U.S. Equal Employment Opportunity Commission
(“EEOC”). (Id. ¶ 92; Kozak MSJ Aff. Ex. YY
(“Discrimination Charge”).) The Discrimination Charge
alleged that Defendant took multiple employment
actions against Plaintiff for “submit[ing] an Affidavit in
support of . . . Lever’s lawsuit” against Defendant:
terminating Plaintiff’s employment; inducing Plaintiff
to enter into the Settlement Agreement; requiring
Plaintiff to participate in psycho-educational sessions
and random drug testing; subjecting Plaintiff to
“numerous groundless and harassing” fact findings
since October 2014; regarding Plaintiff as a drug or
alcohol addict; rescheduling the date for Plaintiff’s
mandatory physical examination while he was away on
vacation; and suspending Plaintiff for three days
“without any lawful basis.” (Discrimination Charge at
1-2.)
Plaintiff filed his Complaint in this case on
September 16, 2016 against Entergy, Griffin, and
Gagnon. (Doc. 5 (“Complaint”).) The Complaint alleged
claims for retaliation against Entergy, Gagnon, and
Griffin, in violation of Title VII of the Civil Rights Act
of 1964 (“Title VII”), 42 U.S.C. § 2000e, et seq.;
discrimination against Entergy under the Americans
with Disabilities Act (“ADA”), 42 U.S.C. § 12101 et seq.;
and retaliation and discrimination against Entergy,
Gagnon, and Griffin, in violation of the New York State

App. 19
Human Rights Law (“NYSHRL”), N.Y. Exec. L. § 290 et
seq. (Complaint ¶¶ 71-80.)
The Court held a pre-motion conference on
September 27, 2017 to discuss Defendants’ proposed
motion for summary judgment and a discovery issue
discussed below. (Minute Entry dated Sept. 27, 2017.)
Following the conference, the claims against Gagnon
and Griffin were voluntarily dismissed. (Doc. 28.)
Entergy submitted its motion for summary judgment
on November 8, (Docs. 37, 40 (“D’s MSJ Mem.”)),
Plaintiff opposed on December 6, (Doc. 45), and
Entergy replied on December 20, (Doc. 47).
I. Background on Discovery
On May 9, 2017, Plaintiff’s deposition ended at 3:00
P.M. after Plaintiff advised counsel that he had not
slept the night before (because he had worked the night
shift) and that he was scheduled to work the night shift
again that later that day. (Doc. 32 (“Kozak Sanctions
Aff.”) ¶ 5.) The parties agreed to continue Plaintiff’s
deposition on June 12, 2017. (Id. ¶ 4.)
On June 12, 2017 at 7:32 a.m., Plaintiff’s counsel
sent a text message to Defendant’s counsel informing
him that Plaintiff would not be able to attend his
deposition scheduled for later that morning. (Id. ¶ 3.)
The reason for Plaintiff’s absence was that he “worked
12 hour shifts for 6 out of the last 7 days and [wa]s
fatigued.” (Id.)
Following Plaintiff’s cancellation of the June 12
deposition, Defendant’s counsel notified Plaintiff’s
counsel that Defendant intended to recoup the costs,
attorney and paralegal fees, and court reporter

App. 20
cancellation fee associated with Plaintiff’s late
cancellation, totaling $1,137.50. (Id. ¶ 6.) On June 16,
2017, Defendant’s counsel submitted a letter
requesting a pre-motion conference, or in the
alternative, leave to file a motion for costs and fees
resulting from the cancellation. (Doc. 19.) The Court
held a pre-motion conference on July 13, 2017, (Minute
Entry dated July 13, 2017), and encouraged the
attorneys for both sides to attempt to reach an
agreement to avoid motion practice. (Kozak Sanctions
Aff. ¶ 8.) Subsequently, through counsel, the parties
agreed that Plaintiff would pay $500, (id.), and by
letter dated July 26, 2017, Defendant notified the
Court that the parties had resolved the issue, (Doc. 22).
But Plaintiff never made the payment, (Kozak
Sanctions Aff. ¶ 10), and Defendant notified the Court
of Plaintiff’s failure to abide by the agreement at the
September 27, 2017 pre-motion conference, (Minute
Entry dated Sept. 27, 2017). At the conference, the
Court granted Defendant leave to file a motion for
sanctions. (Id.; Docs. 29, 30.) Defendant submitted its
motion on November 1, 2017, (Doc. 31), Plaintiff
opposed on November 8, (Doc. 36 (“P’s Sanctions
Opp.”)), and Defendant replied on November 22, (Doc.
43 (“D’s Sanctions Reply”)).
Defendant claims to have incurred the following
fees based on Plaintiff’s cancellation of his June 12,
2017 deposition: (1) Attorney Jonathan Kozak spent 1.8
hours preparing for the June 12 deposition and an
additional .3 hours addressing the cancellation while a
paralegal spent .5 hours addressing the cancellation;
(2) an associate attorney spent 1.8 hours preparing the

App. 21
pre-motion letter dated June 16, 2017; (3) Kozak spent
1 hour preparing for and attending the July 13, 2017
conference; and (4) an associate attorney spent 3.2
hours preparing the instant motion for sanctions.
(Kozak Sanctions Aff. ¶ 13.)3 Kozak’s billing rate is
$475 per hour, while the rate for associate attorneys is
$295 per hour and for paralegals $100 per hour. (Id.
¶ 14.)
II.

DEFENDANT’S MOTION FOR SANCTIONS
A. Legal Standard

Rule 37(d) provides that the court can order a
sanction when “a party. . . fails, after being served with
proper notice, to appear for that person’s deposition.”
Fed. R. Civ. P. 37(d)(1)(A)(i). “Sanctions may include
any of the orders listed in Rule 37(b)(2)(A)(i)-(vi),” but
“must require the party failing to act . . . to pay the
reasonable expenses, including attorney’s fees, caused
by the failure, unless the failure was substantially
justified or other circumstances make an award of
expenses unjust.” Id. 37(d)(3). “A failure described in
Rule 37(d)(1)(A) is not excused on the ground that the
discovery sought was objectionable, unless the party
failing to act has a pending motion for a protective
order under Rule 26(c).” Id. 37(d)(2). “If a [c]ourt grants
a motion made under Rule 37(d), it has broad
discretion to impose sanctions it considers just . . . .”
Handwerker v. AT & T Corp., 211 F.R.D. 203, 208
(S.D.N.Y. 2002).

3

Apparently Plaintiff’s counsel paid the court reporter’s
cancellation fee. (Kozak Sanctions Aff. at 3 n.1.)

App. 22
The burden of proof is on the nonmovant to show
“‘that his failure is justified or that special
circumstances make an award of expenses unjust.’”
Novak v. Wolpoff & Abramson LLP, 536 F.3d 175, 178
(2d. Cir 2008) (quoting Fed. R. Civ. P. 37(b) advisory
committee’s note to 1970 amendments). “Conduct is
substantially justified if there was a genuine dispute or
if reasonable people could differ as to the
appropriateness of the contested action.” Klein v.
Torrey Point Grp., LLC, 979 F. Supp. 2d 417, 442
(S.D.N.Y. 2013) (internal quotation marks omitted). “It
is well-established, however, that a party applying for
sanctions under Rule 37(d) is not required to prove that
the party who failed to attend the deposition acted in
bad faith.” John Wiley & Sons, Inc. v. Book Dog Books,
LLC, 298 F.R.D. 145, 149 (S.D.N.Y. 2014) (citing
Blauinsel Stiftung v. Sumitomo Corp., No. 99-CV-1108,
2001 WL 1602118, at *7 (S.D.N.Y. Dec. 14, 2001) (“[A]
finding of bad faith is not a prerequisite to the
imposition of sanctions under Rule 37(d).”) (alteration
in original)).
B. Analysis
Plaintiff fails to provide a substantial justification
for his failure to attend his deposition on June 12,
2017. Plaintiff explains that he cancelled because he
was tired due to his demanding schedule, (see P’s
Sanctions Opp. at 3), but he does not explain how that
meets the substantial justification standard. As
Defendant notes, Plaintiff did not attempt to
reschedule the deposition before the morning it was to
take place. (D’s Sanctions Reply at 2). Plaintiff’s
employer was willing to allow Plaintiff to request time

App. 23
off as necessary to participate in this litigation, but
Plaintiff failed to make any such request. (Doc. 19 at 2.)
Plaintiff knew the demands of his employment when
the parties scheduled the deposition; he had over a
month’s notice of the date; and he does not argue that
any special circumstances made his post-work fatigue
on June 12, 2017 unexpected. And Plaintiff’s conduct is
particularly glaring considering that “his failure to
properly plan his schedule caused the early
termination of the first day of his deposition.” (D’s
Sanctions Reply at 2.) Thus, Plaintiff has not met his
burden in providing substantial justification for his
failure to attend his June 12 deposition, and the
imposition of fees is appropriate.4
Defendant’s fee application appears to identify tasks
that are, for the most part, a result of Plaintiff’s
cancellation of his deposition. Not all of the time
preparing for the deposition, however, was caused by
Plaintiff’s cancellation. See Montesa v. Schwartz, No.
12-CV-6057, 2015 WL 13173166, at *4 (S.D.N.Y.
Oct. 13, 2015) (“[T]he time ‘preparing’ for each
deposition does not adequately represent expenses
‘caused’ by the late-noticed cancellations.”) (quoting
John Wiley & Sons, Inc., 298 F.R.D. at 149).
Nonetheless, the cancellation of the deposition meant
that Defendant’s counsel had to repeat some of his
preparation in advance of a rescheduled deposition,
which occurred on July 25, 2017. (Kozak MSJ Aff. ¶ 6

4

Under Rule 37(d)(3), the sanction may be imposed on the party,
his counsel, or both. Here, there is no indication that counsel bore
any responsibility for Plaintiff’s failure to attend, and thus the
payment must be made by Plaintiff.

App. 24
(noting dates of Plaintiff’s deposition).) Therefore,
Defendant will be compensated for thirty percent of the
time counsel devoted to preparation for the June 12
deposition. See Sang Lan v. Time Warner, Inc., No. 11CV-2870, 2015 WL 2078385, at *1 (S.D.N.Y. May 4,
2015) (compensating counsel thirty percent of time
counsel devoted to preparing for cancelled deposition
because counsel would “have to repeat some of their
preparation in advance of a rescheduled deposition”).
In sum, the Court grants Defendant’s request for
compensation for the following: (1) 1.84 Kozak hours
(.54 hours preparing for the deposition, .3 hours
responding to the cancellation, and 1 hour preparing
for and attending the July 17 pre-motion conference);
(2) 5 associate hours (1.8 hours preparing the premotion letter and 3.2 hours preparing the sanctions
motion); and (3) .5 paralegal hours (responding to the
cancellation). Next, the Court finds that the billable
rates that Defendant provides reasonable: $475 per
hour for Kozak; $295 per hour for associate attorneys;
and $100 per hour for paralegals. See Vaigasi v. Solow
Mgmt. Corp., No. 11-CV-5088, 2017 WL 3868990, at *4
(S.D.N.Y. Sept. 5, 2017) (identifying hourly fee rates of
$250-$600, $200-$350, and $100-$200 as reasonable fee
rates for experienced employment law litigators,
associates, and paralegals, respectively).5 Based on the
determinations above, Defendant’s fee award as a

5

Plaintiff does not object to Defendant’s hours or hourly rates.

App. 25
result of the Plaintiff’s cancellation of his June 12
deposition totals $2,399.00. 6
III.

DEFENDANT’S MOTION FOR SUMMARY
JUDGMENT
A. Legal Standard

Summary judgment is appropriate when “the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
“[T]he dispute about a material fact is ‘genuine’ . . . if
the evidence is such that a reasonable jury could return
a verdict for the nonmoving party.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986). A fact is
“material” if it “might affect the outcome of the suit
under the governing law . . . . Factual disputes that are
irrelevant or unnecessary will not be counted.” Id.
On a motion for summary judgment, “[t]he evidence
of the non-movant is to be believed, and all justifiable
inferences are to be drawn in his favor.” Id. at 255. The
movant bears the initial burden of demonstrating “the
absence of a genuine issue of material fact,” and, if
satisfied, the burden then shifts to the non-movant to
present “evidence sufficient to satisfy every element of
the claim.” Holcomb v. Iona Coll., 521 F.3d 130, 137 (2d
Cir. 2008) (citing Celotex Corp. v. Catrett, 477 U.S. 317,
323-24 (1986)). “The mere existence of a scintilla of

6

In light of the circumstances, including my disposition below, I
decline in my discretion, see S. New England Tel. Co. v. Glob.
NAPs Inc., 624 F.3d 123, 143-44 (2d Cir. 2010), to impose a
sanction beyond the imposition of fees.

App. 26
evidence in support of the [non-movant’s] position will
be insufficient; there must be evidence on which the
jury could reasonably find for the [non-movant].”
Anderson, 477 U.S. at 252. Moreover, the non-movant
“must do more than simply show that there is some
metaphysical doubt as to the material facts,”
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 586 (1986), and he “may not rely on
conclusory allegations or unsubstantiated speculation,”
Fujitsu Ltd. v. Fed. Express Corp., 247 F.3d 423, 428
(2d Cir. 2001) (internal quotation marks omitted).
“A party asserting that a fact cannot be or is
genuinely disputed must support the assertion by . . .
citing to particular parts of materials in the record,
including depositions, documents, electronically stored
information, affidavits or declarations, stipulations
(including those made for purposes of the motion only),
admissions, interrogatory answers, or other materials
. . . .” Fed. R. Civ. P. 56(c)(1). Where an affidavit is used
to support or oppose the motion, it “must be made on
personal knowledge, set out facts that would be
admissible in evidence, and show that the affiant . . . is
competent to testify on the matters stated.” Fed. R. Civ.
P. 56(c)(4); see Major League Baseball Props., Inc. v.
Salvino, Inc., 542 F.3d 290, 310 (2d Cir. 2008). In the
event that “a party fails . . . to properly address another
party’s assertion of fact as required by Rule 56(c), the
court may,” among other things, “consider the fact
undisputed for purposes of the motion” or “grant
summary judgment if the motion and supporting
materials – including the facts considered undisputed
– show that the movant is entitled to it.” Fed. R. Civ. P.
56(e)(2)-(3).

App. 27
B. ADA Discrimination
The ADA aims to prevent discrimination “against a
qualified individual on the basis of disability in regard
to,” among other things, “privileges of employment.” 42
U.S.C. § 12112(a). Claims under the ADA are analyzed
under the familiar burden-shifting framework
established by the Supreme Court in McDonnell
Douglas Corp. v. Green, 411 U.S. 792 (1973). See
McBride v. BIC Consumer Prods. Mfg. Co., 583 F.3d 92,
96 (2d Cir. 2009). “A plaintiff must establish a prima
facie case; the employer must offer through the
introduction of admissible evidence a legitimate nondiscriminatory reason for the [adverse decision(s)]; and
the plaintiff must then produce evidence and carry the
burden of persuasion that the proffered reason is a
pretext.” Sista v. CDC Ixis N. Am., Inc., 445 F.3d 161,
169 (2d Cir. 2006) (emphasis added).
To establish a prima facie case of discrimination
based on disability, a plaintiff must show: “‘(1) his
employer is subject to the ADA; (2) he was disabled
within the meaning of the ADA [or regarded as
disabled]; (3) he was otherwise qualified to perform the
essential functions of his job, with or without
reasonable accommodation; and (4) he suffered [an]
adverse employment action because of his disability.’”
Cameron v. Cmty. Aid for Retarded Children, Inc., 335
F.3d 60, 63 (2d Cir. 2003) (second alteration in original)
(quoting Giordano v. City of N.Y., 274 F.3d 740, 747 (2d
Cir. 2001)).
Defendant argues that Plaintiff’s ADA claim should
be dismissed for three reasons: (1) Plaintiff was never
disabled nor perceived as being disabled; (2) Plaintiff

App. 28
never experienced any adverse employment action as
a result of an alleged perceived disability; (3) there is a
legitimate non-discriminatory reason for the alleged
adverse employment actions that Plaintiff experienced
and there is no evidence of pretext. (D’s MSJ Mem. at
13-19.) Plaintiff appears to concede the point that
Defendant took no action against him, noting that
discovery revealed that the action of which Plaintiff
complains – random drug testing over a three-year
period – was a decision made by the independent
substance abuse expert, and that Defendant was
required under 10 C.F.R. § 26.69 to implement the
expert’s recommendation. (P’s MSJ Opp. at 3.) This
concession is the only point Plaintiff makes in his brief
with regard to the ADA claim, which I assume means
that Plaintiff does not still press that claim. Even if he
were pursuing it, and even if the random drug testing
constituted an adverse employment action, Plaintiff’s
ADA claim fails for two other reasons.
First, there is no evidence that Plaintiff was
disabled or that Defendant regarded Plaintiff as such.
“Disability” means “a physical or mental impairment
that substantially limits one or more [of an
individual’s] major life activities,” “a record of such
impairment,” or “being regarded as having such an
impairment.” 42 U.S.C. § 12102(1). To be “regarded as
having such an impairment,” an individual must
“establish[] that he or she has been subjected to an
action prohibited under [the ADA] because of an actual
or perceived physical or mental impairment whether or
not the impairment limits or is perceived to limit a
major life activity.” Id. § 12102(3)(A). Here, Plaintiff
asserts that he was regarded as being disabled by drug

App. 29
addiction, but he points to no facts in support of this
assertion. (P’s MSJ Opp. at 3.) See Koenig v. City of
New Haven, No. 13-CV-1870, 2015 WL 5797011, at *3
(D. Conn. Oct. 1, 2015) (“To the extent that [plaintiff]
attempts to allege a ‘regarded as’ ADA claim, his
allegations are conclusory and not supported by
sufficient facts . . . .”).
Second, it is undisputed that Plaintiff was required
to undergo random drug testing because Defendant
received potentially disqualifying fitness for duty
information following Plaintiff’s arrest for criminal
possession of a controlled substance. See 10 C.F.R.
§§ 26.69(d)(1)-(3). Compliance with mandatory federal
regulations, such as NRC’s regulations, is considered a
legitimate non-discriminatory reason. See Stevens v. S.
Nuclear Operating Co., 209 F. Supp. 3d 1372, 1379
(S.D. Ga. 2016) (finding legitimate, non-discriminatory
reason where nuclear energy facility-defendant
removed NSO from work because she was not fit for
duty under NRC regulations); Smith v. United Parcel
Serv., Inc., No. CIV. 04-CV-3812, 2006 WL 3327072, at
*10 (N.D. Ga. July 10, 2006) (finding legitimate, nondiscriminatory reason where delivery companydefendant removed driver from position because he lost
Department of Transportation certification). Plaintiff
makes no argument for pretext in response. As a result,
Plaintiff’s ADA claim is dismissed.
C. Title VII Retaliation
Defendant moves for summary judgment on
Plaintiff’s Title VII retaliation claim because it is timebarred and fails on the merits. (D’s MSJ Mem. at 11-12,
19-25.)

App. 30
1. Timeliness
Title VII requires claimants to file a charge of
retaliation with the EEOC within 300 days of the
retaliatory act. See 42 U.S.C. § 2000e-5(e)(1). Plaintiff’s
Discrimination Charge to the NYSDHR – which was
deemed dual-filed with the EEOC – was filed on
April 12, 2016, and thus the limitations period in his
case began 300 days earlier, on June 17, 2015.
Under the continuing violation exception to the
Title VII limitations period – a “disfavored” principle,
Sherman v. Nat’l Grid, 993 F. Supp. 2d 219, 225
(N.D.N.Y. 2014) – “if a Title VII plaintiff files an EEOC
charge that is timely as to any incident of
discrimination in furtherance of an ongoing policy of
discrimination, [then] all claims of acts of
discrimination under that policy will be timely even if
they would be untimely standing alone.” Chin v. Port
Auth. of N.Y. & N.J., 685 F.3d 135, 155-56 (2d Cir.
2012) (internal quotation marks omitted). “The
continuing violation exception applies to cases
involving specific discriminatory policies or
mechanisms such as discriminatory seniority lists or
discriminatory employment tests.” Lambert v. Genesee
Hosp., 10 F.3d 46, 53 (2d Cir. 1993) (citation omitted),
overruled on other grounds by Greathouse v. JHS Sec.
Inc., 784 F.3d 105 (2d Cir. 2015), and abrogated on
other grounds by Kasten v. Saint-Gobain Performance
Plastics Corp., 563 U.S. 1 (2011). “However, multiple
incidents of discrimination, even similar ones, that are
not the result of a discriminatory policy or mechanism
do not amount to a continuing violation.” Id.

App. 31
Plaintiff claims that his Discrimination Charge
alleged “an ongoing retaliatory course of conduct”
because it contained allegations within the statutory
period and the allegations that fell outside of the
statutory period “were of the same nature as those
within.” (P’s MSJ Opp. at 4-5.) The Court disagrees.
Plaintiff alleges discrete instances of retaliatory action,
not a “specific discriminatory polic[y] or mechanism[].”
Lambert, 10 F.3d at 53. The out-of-period actions
Plaintiff alleged in both his Discrimination Charge and
his opposition brief – the termination, the alleged
fraudulent inducement to enter into the Settlement
Agreement, and the random drug testing requirement
– are discrete acts that trigger their own 300-day
clocks. See Edner v. NYCTA-MTA, 134 F. Supp. 3d 657,
664 (E.D.N.Y. 2015) (characterizing termination,
disparate disciplining, and negative performance
evaluations as discrete acts) (collecting cases); E.E.O.C.
v. U.S. Steel Corp., No. 10-CV-1284, 2012 WL 3017869,
at *7 (W.D. Pa. July 23, 2012) (“Drug tests, drug
residue screenings and termination of employment are
discrete acts as they occur on a readily identifiable date
certain and each constitutes a separate employment
practice.”). Accordingly, in considering Plaintiff’s
retaliation claim, the Court disregards allegedly
retaliatory events occurring before June 17, 2015.
2. Merits
Retaliation claims are analyzed using the
McDonnell Douglas burden-shifting framework. See
Jute v. Hamilton Sundstrand Corp., 420 F.3d 166, 173
(2d Cir. 2005); Cruz v. Oxford Health Plans, Inc., No.
03-CV-8863, 2008 WL 509195, at *10 (S.D.N.Y. Feb. 26,

App. 32
2008). A plaintiff bears the initial burden of
establishing a prima facie case of retaliation, and the
burden of proof at this stage is “‘de minimis.’” Moccio v.
Cornell Univ., 889 F. Supp. 2d 539, 582 (S.D.N.Y.
Aug. 27, 2012) (quoting Hicks v. Baines, 593 F.3d 159,
166 (2d Cir. 2010)). “[B]ut it is not non-existent.”
Pleener v. N.Y.C. Bd. of Educ., No. 05-CV-973, 2007 WL
2907343, at *11 (E.D.N.Y. Oct. 4, 2007) (internal
quotation marks omitted), aff’d, 311 F. App’x 479 (2d
Cir. 2009) (summary order). If the plaintiff meets this
burden, the defendant must offer a legitimate, nonretaliatory reason for its actions. Moccio, 889 F. Supp.
2d at 582-83. “If the employer produces evidence of a
non-retaliatory justification for the adverse
employment action,” the plaintiff must demonstrate
that there is sufficient evidence for a reasonable juror
to find that the reason offered by the defendant is
pretext for retaliation. Id.
To establish a prima facie case of retaliation,
Plaintiff must show that: (1) he was engaged in activity
protected under anti-discrimination statutes;
(2) Defendant was aware of Plaintiff’s participation in
the protected activity; (3) Defendant took adverse
action against Plaintiff; and (4) there is a causal
connection between Plaintiff’s protected activity and
the adverse action taken by Defendant. Fincher v.
Depository Trust & Clearing Corp., 604 F.3d 712, 720
(2d Cir. 2010). To establish an adverse employment
action, “a plaintiff must show that a reasonable
employee would have found the challenged action
materially adverse, which . . . means it well might have
dissuaded a reasonable worker from making or
supporting a charge of discrimination.” Burlington N.

App. 33
& Santa Fe Ry. Co. v. White, 548 U.S. 53, 68 (2006)
(internal quotation marks omitted). A plaintiff may
establish the causal connection indirectly by showing
that the protected activity was closely followed by the
retaliation, or directly by showing evidence of
retaliatory animus. See Cosgrove v. Sears, Roebuck &
Co., 9 F.3d 1033, 1039 (2d Cir. 1993).
Plaintiff claims that Defendant retaliated against
him after he provided an affidavit on May 13, 2013 in
support of a co-worker’s anti-discrimination lawsuit.
(P’s MSJ Opp. at 6-7.) Specifically, Plaintiff argues
that Defendant subjected him to the following
retaliatory acts: (1) termination of employment on May
9, 2013; (2) false inducement in January 2014 of entry
into the Settlement Agreement waiving any legal claim
to back pay in reliance on a purported requirement
that Plaintiff have a New York State pistol license in
order to perform the duties of his position as an NSO;
(3) random drug testing for three years; (4) fact
findings and suspensions since October 2014; and
(5) negative comments from his peers related to the
intensified drug testing. (Id. at 6-9.) The Court will not
consider the first two items because they are timebarred for the reasons stated above. Nor will the Court
consider the third item, because Plaintiff concedes that
the independent substance abuse expert set forth the
parameters for Plaintiff’s fitness to return to work,
which included intensified random drug testing. (Id. at
8.) Thus, the drug testing requirement cannot be
attributed to Defendant. (Id.)7 And the fifth item, the
7

Even if the drug testing requirement could be attributed to
Defendant, Defendant had a legitimate non-retaliatory reason for

App. 34
negative comments from peers, lacks the requisite
specificity to be considered the basis for finding an
adverse employment decision. See Dickens v. Hudson
Sheraton Corp., LLC, 167 F. Supp. 3d 499, 519 n.14
(S.D.N.Y. 2016) (“[Plaintiff’s] allegations of workplace
teasing and harassment and defendants’ failure to
remedy the same are so fatally lacking in detail that
they cannot be the basis for finding an adverse
employment decision.”), aff’d, 689 F. App’x 670 (2d Cir.
2017) (summary order), cert. denied, 138 S. Ct. 335
(2017), reh’g denied, 138 S. Ct. 942 (2018). There is also
no basis to attribute this conduct to Defendant. See
Lotocky v. Elmira City Sch. Dist., 149 F. Supp. 3d 429,
435 (W.D.N.Y. 2015) (assuming co-worker comments
were adverse, no basis for imputing them to employer
where plaintiff never reported them). That leaves four
potential retaliatory actions: the fact finding meetings
from October 7, 8, and 12, 2015, and the December 7,
2015 suspension. Plaintiff cannot sustain a retaliation
claim based on those events, however, for two reasons8.
First, Plaintiff cannot demonstrate a causal
connection between his protected activity and any
adverse employment action. Because “a direct showing
[of retaliatory animus] requires [P]laintiff to provide
‘tangible proof’ of retaliatory animus, ‘conclusory
assertions of retaliatory motive’ are insufficient.” Smith
imposing the drug testing requirement, as discussed above:
compliance with NRC regulations.
8

The Court assumes, without deciding, that the fact finding
meetings were adverse actions – a dubious proposition See
Tepperwien v. Entergy Nuclear Operations, Inc., 663 F.3d 556, 56970 (2d Cir. 2011).

App. 35
v. Cty. of Suffolk, 776 F.3d 114, 118-19 (2d Cir. 2015)
(per curiam) (quoting Cobb v. Pozzi, 363 F.3d 89, 108
(2d Cir. 2004)). Plaintiff’s assertion that the fact
findings and suspension were “in retaliation for having
engaged in protected activity” is wholly conclusory. (P’s
MSJ Opp. at 9.) And no reasonable juror could glean a
causal connection from temporal proximity because
there is more than a two-year gap between the
protected activity and the alleged retaliatory actions.
See Hollander v. Am. Cyanamid Co., 895 F.2d 80, 85-86
(2d Cir. 1990) (upholding district court’s grant of
summary judgment on retaliation claim where three
months between protected activity and termination,
and plaintiff submitted no other evidence of causal
nexus); Walcott v. Cablevision, No. 10-CV-2602, 2012
WL 4447417, at *14 (E.D.N.Y. Sept. 24, 2012) (“District
courts in the Second Circuit have consistently held that
a passage of more than two months between the
protected activity and the adverse employment action
does not allow for an inference of causation.”) (internal
quotation marks omitted) (collecting cases). So
Plaintiff’s prima facie case fails.
Second, even if it did not, Defendant has articulated
legitimate non-retaliatory reasons for Plaintiff’s fact
findings and suspension: Plaintiff’s unscheduled
absences and failure to follow Defendant’s policy. See
Henny v. N.Y.S. Office of Mental Health, 842 F. Supp.
2d 530, 554(S.D.N.Y. 2012) (“Plaintiff’s lateness and
absences certainly suffice to establish a legitimate,
non-discriminatory reason for her treatment.”)
(collecting cases); Brown v. The Pension Bds., 488 F.
Supp. 2d 395, 406 (S.D.N.Y. 2007) (“Certainly, an
employer is entitled to [take disciplinary action

App. 36
against] an employee who fails to follow company rules
and fails to appear for work without notification . . . .”)
(internal quotation marks omitted). Specifically, the
fact findings on October 7 and 8 occurred after Plaintiff
failed to follow the procedure to notify a supervisor
before retaking the RAD exam a second time. (P’s 56.1
Stmt. & Resp. ¶ 77.) The October 12 fact finding
occurred after Plaintiff was a no-show for a scheduled
shooting range training. (Id. ¶ 80.) And the suspension
occurred in light of these missteps, in addition to
Plaintiff’s failure to appear for his scheduled physical
exam and his failure to notify Defendant of his open
container summons and court date. (See Kozak MSJ
Aff. Ex. XX.) Defendant therefore has satisfied its
burden of production.
Plaintiff, in response, makes no attempt to show
that the reasons offered for the fact findings and
suspension were a pretext for retaliation. A jury could
not reasonably find on this record that retaliation was
a motivating factor in Defendant’s employment
decisions. Thus, Plaintiff’s retaliation claim is
dismissed.
D. NYSHRL Claims
In addition to his statutory claims under federal
law, Plaintiff further alleges that his rights were
violated under New York law. The “traditional ‘values
of judicial economy, convenience, fairness, and comity’”
weigh in favor of declining to exercise supplemental
jurisdiction where all federal-law claims are eliminated
before trial. Kolari v. N.Y.-Presbyterian Hosp., 455 F.3d
118, 122 (2d Cir. 2006) (quoting Carnegie-Mellon Univ.
v. Cohill, 484 U.S. 343, 350 (1988)). Having determined

App. 37
that Plaintiff’s Title VII and ADA claims should be
dismissed, this Court declines to exercise supplemental
jurisdiction over Plaintiff’s remaining NYSHRL claims.
See id. (citing 28 U.S.C. § 1367(c)(3)).
IV.

CONCLUSION

For the foregoing reasons, Defendant’s motion for
summary judgment is GRANTED, and Defendant’s
motion for sanctions is GRANTED insofar as the Court
awards Defendant $2,399.00 in attorneys’ fees
pursuant to Rule 37. Plaintiff’s federal claims are
DISMISSED with prejudice and his state claims are
DISMISSED without prejudice. Plaintiff shall pay the
sanctions award of $2,399.00 to Defendant by July 16,
2018, unless he submits a financial affidavit (listing all
income, expenses, assets, and liabilities) and a
proposed payment schedule by July 2, 2018, in which
case the Court will consider letting Plaintiff pay in
installments. The Clerk of Court is respectfully
directed to terminate the pending motions, (Docs. 31,
32, 33, 37), enter judgment for Defendant, and close the
case.
SO ORDERED.
Dated: May 31, 2018
White Plains, New York
__________/s/____________
CATHY SEIBEL, U.S.D.J

